i

■

V.

Number
In the
Supreme Court of the United States
DARRELL BERRY; CONSTANCE LAFAYETTE
Petitioners,
v.

WELLS FARGO BANK, N.A.; FEDERAL HOME LOAN MORTGAGE
CORPORATION, “Freddie Mac” as trustee for securitized trust; LOANCITY;
FREDDIE MAC MULTICLASS CERTIFICATES SERIES 3113 TRUST;
MORTGAGE ELETRONIC REGISTRATION SYSTEM, “MERS”; DOES 1 through
100 “inclusive”, et al.
Respondents.
PROOF OF SERVICE

I, DARRELL BERRY and CONSTANCE LAFAYETTE declare that on,
September 22, 2020, as required by Supreme Court Rule 29 we served the enclosed
Motion For Leave To Proceed In Forma Pauperis and Petition For A Writ Of
Certiorari to each party’s counsel, by first class mail through the US Postal System
within 3 calendar days. The names and addresses of those served are:
Christopher Daniel Meyer
BURR & FORMAN LLP
190 East Capitol Street
Suite M- IOO
Jackson, MS 39201
(601)355-3434
Telephone: (601)355-3434
Email: cmever@,burr.com

Lindsay Leigh Meador &
Benjamin Givens Torian
GALLOWAY JOHNSON TON/WKINS
BURR & SMITH
328 Settlers Trace Blvd
Lafayette, Louisiana 70508
Telephone: (337)735-1760
Facsimile: (337)993-0933
Imeador(d),sallowavlawfirm. com

I declare under penalty of perjury that the foregoing is true and correct.
Respectfully Submitted September 22, 2020.

DarrelUBerry and Constance Lafayette,
8338 Greenmoss Drive,
Baton Rouge, LA 70806
(Phone): 225.610.8633
Petitioner Pro Se

Number
In the
Supreme Court of the United States

DARRELL BERRY; CONSTANCE LAFAYETTE
Petitioners,
v.

WELLS FARGO BANK, N.A.; FEDERAL HOME LOAN MORTGAGE
CORPORATION, “Freddie Mac” as trustee for securitized trust; LOANCITY;
FREDDIE MAC MULTICLASS CERTIFICATES SERIES 3113 TRUST;
MORTGAGE ELETRONIC REGISTRATION SYSTEM, “MERS”; DOES 1 through
100 “inclusive”, et al.
Respondents.
PROOF OF SERVICE
I, Darrell Berry and Constance Lafayette declare that on
day of
. 2020 as required by Supreme Court Rule 29, we served the
enclosed Motion for Leave To Proceed In Forma Pauperis and Petition for a Writ of
Certiorari to each parties counsel through the US Postal System within three
calendar days. The names and addresses of those served are:
Lindsay Leigh Meador &
Benjamin Givens Torian
GALLOWAY JOHNSON TONPKINS
BURR & SMITH
328 Settlers Trace Blvd.
Lafayette, Louisiana 70508
Telephone: (337)735-1760
Facsimile: (337)993-0933
lmeador@gaRowaylawfirm.com

Christopher Daniel Meyer
BURR & FORMAN LLP
190 East Capitol Street
Suite M- IOO
Jackson, MS 39201
(601)355-3434
Telephone: (601)355 3434
Email: cmeyer@burr.com

I declare under penalty of perjury that the foregoing is true and correct.
RespectfuHy submitted on

day of

. 2020

DarreU Berr^and Constance Lafaw^tje,
8338 Greenmoss Drive,
Baton Rouge, LA 70806
(Phone): 225.610.8633
Petitioner Pro Se
received

DEC -1
iffiiSfflIgu!.

